No.

IN THE

SUPREME COURT OF THE UNITED STATES
In re TODD BRITTON-HARR,
Petitioner.

CERTIFICATE OF SERVICE

I, Michael Ufferman, member of the Bar of this Court, hereby certify that on this
22nd day of December, 2020, three copies of the Petition for an Extraordinary Writ of
Habeas Corpus (with appendix) in the above-entitled case were mailed first class,
postage prepaid, to:
Office of the United States Attorney
21 East Garden Street
Suite 400
Pensacola, Florida 32502

Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Page 1 of 2

I further certify that all parties required to be served have been served.

Respectfully submitted,

/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 2

